                                            STATEMENT BY

                                     JOHNNIE E. FRAZIER
                                ACTING INSPECTOR GENERAL
                              U.S. DEPARTMENT OF COMMERCE

                                    BEFORE THE
                        COMMITTEE ON GOVERNMENTAL AFFAIRS
                               UNITED STATES SENATE

                                              JUNE 23, 1999


Mr. Chairman and Members of the Committee, I am pleased to appear before you today to

discuss our review of the Department of Commerce’s export licensing process for dual-use

commodities. This work was done in response to your request that we look at the process and

update the 1993 Inspectors General report on export licensing.



Commerce’s Bureau of Export Administration (BXA) administers the Nation’s dual-use export

control licensing and enforcement system for national security, foreign policy, and

nonproliferation reasons. Based on our review of BXA, and as generally supported by the

findings of the other IGs, we determined that the interagency license review process is working

reasonably well and has improved much since 1993. The Departments of Defense, Energy,

State,1 Justice, and the CIA now review many more of the license applications submitted to

Commerce. In FY 1998, BXA referred 85 percent of license applications, up from 53 percent in

1993. Clearly, this multi-agency review brings divergent policy views and more information to


        1
         The U.S. Arms Control and Disarmament Agency was a separate referral agency until April 1999, when it
became a part of the Department of State.
bear on license decision-making. In addition, the four-level escalation process for resolving

license disputes among the referral agencies is working relatively well.



While we found significant areas of improvement since our 1993 review, we also identified a

number of issues that warrant the attention of the Commerce Department, the Administration,

and the Congress.



First and foremost, it is time to push even harder for new legislation to replace the expired Export

Administration Act. There is also a need to clarify the licensing policy and regulations regarding

the release of controlled technology to foreign nationals working in federal and private research

facilities–commonly referred to as “deemed exports.” We found a general lack of knowledge and

understanding on the part of U.S. industry and the federal laboratories about deemed export

regulations and when such an export license is required.



A third area where we see the need for change involves the requirement that a post shipment

verification be conducted for every high performance computer, or HPC, greater than 2000

MTOPS2 that is shipped to countries of concern. Our review concluded that this is not the most

effective use of government resources. This requirement has, in effect, forced BXA to divert

some of its enforcement resources to verify shipments of “lower end” HPCs or on multiple visits

to the same end-users.




       2
        Million Theoretical Operations Per Second.

                                                     -2-
Mr. Chairman, in response to your question about the adequacy of guidance and training for

licensing officers, we have mixed findings. We initially identified the lack of up-to-date

guidelines as one of BXA’s major weaknesses. However, near the end of our review, BXA

officials issued new work guidelines for licensing officers, and are considering further changes.



We also recommended that BXA establish a formal training program for all of its licensing

officers to supplement its current on-the-job training. Further we suggested that BXA expand the

use of a comprehensive training program that its Encryption Policy Division has developed for its

new licensing officers.



In response to the Chairman’s question about pressure on licensing officers, most BXA licensing

officials reported that they had not been pressured into changing their recommendations on

specific licenses. Two of the 36 licensing officials who responded to this survey question did

state, however, that they had received some pressure from management. But, our intense follow-

up on this question did not provide evidence to support these individuals’ statements.



We did, however, have questions about BXA managers’ instructions to the Chair of the

Operating Committee on her decisions on a few OC cases. We advised them that if the Chair

makes a decision that BXA disagrees with, BXA should escalate the case to the Advisory

Committee for Export Policy in order to avoid even the appearance that this part of the process is

not transparent.




                                                -3-
The commodity classification process, or CCATS, is another area ripe for improvement. First,

BXA needs to improve the timeliness of its processing of exporters’ CCATS requests. Second,

we recommend that BXA refer all defense-related CCATS requests to both the Defense and State

Departments for their review.



As I stated earlier, we believe the overall referral process is generally more effective because of

greater interagency involvement. However, we still found some problems. We were especially

concerned about (1) licensing officers amending some existing licenses without interagency

review; (2) inadequate review time being provided to the CIA’s Nonproliferation Center for its

end-user checks; and (3) BXA approval of licenses based on a favorable end-use check after the

pre-license check was canceled. BXA management has agreed to correct or address most of

these problems.



In addition, I would like to highlight two other problems that require interagency action and

attention by the Congress. First, we found that the CIA and its Nonproliferation Center, at their

own request, review only 45 percent of all referred dual-use export applications. In addition,

they do not always conduct a comprehensive analysis of the applications they do receive.

Furthermore, there is no mechanism to track the cumulative effect of technology transfers. Such

cumulative effect analysis–while admittedly difficult to make–would be a useful addition to the

license review process.




                                                 -4-
Another key missing element is the screening of all license applications against the Treasury

Enforcement Communications System (TECS) database maintained by the U.S. Customs

Service.



We also have recommended a change in the exporters appeals process. Once an export license

application has been formally denied, the exporter has the right to appeal to the Under Secretary

of Commerce for Export Administration. Although BXA confers informally with the referral

agencies before deciding on appeals, we believe this interagency process should be formalized.



Regrettably, Mr. Chairman, we found that BXA is still not adequately monitoring license

conditions, as we first reported in 1993. This means that BXA is less able to determine if

licensed goods have been diverted to unauthorized end-users, and exporters may receive new

licenses even if they did not comply with previous licenses.



We also found some recurring problems with respect to end-use checks conducted by

Commerce’s U.S. and Foreign Commercial Service, including (1) untimely end-use checks, (2)

use of foreign service nationals and personal services contractors to conduct some checks, and

(3) failure to always perform on-site inspections. In addition, while we found that BXA’s

Safeguard Verification program enhances the quality of end-use checks because of its use of

enforcement agents, we made suggestions to make this program even more useful.




                                               -5-
And, finally Mr. Chairman, in response to your question about BXA’s automated export

licensing system, called ECASS,3 we found that the system’s internal controls are generally

adequate. Moreover, its data are sufficiently reliable and licensing recommendations entered into

ECASS cannot be changed without the knowledge of the licensing officer.



At the same time, it is clear that BXA’s automated information system is inefficient and needs to

be replaced. ECASS lacks good query and text capabilities, modern interfaces, and online access

to exporters’ technical specifications. We endorse BXA’s efforts to secure funding for a new

system. We recommended that BXA consider a classified system, which will improve access to

classified data and interface with the referral agencies. We also urged BXA to better coordinate

its system development efforts with the other export licensing agencies.



                                                  ****



This concludes my statement Mr. Chairman. I would be pleased to answer any questions you or

other Members of the Committee may have.




       3
        Export Control Automated Support System

                                                  -6-
